Nos. 19-251 and 19-255
In the

Supreme Court of the United States
Americans for Prosperity Foundation,
Petitioner,
v.
Xavier Becerra, Attorney General
of California,
Respondent.
Thomas More Law Center,
Petitioner,
v.
Xavier Becerra, Attorney General
of California,
Respondent.

On Writs of Certiorari to the United States
Court of A ppeals for the Ninth Circuit
BRIEF OF THE Thomas More Society AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS
Michael Mchale
Thomas Brejcha
Counsel
Counsel of Record
Thomas More Society - Omaha
President and Chief Counsel
10506 Burt Circle, Suite 110
Thomas More Society
309 West Washington Street,
Omaha, NE 68114
Suite 1250
(312) 782-1680
Chicago, IL 60606
(312) 782-1680
tbrejcha@thomasmoresociety.org
Counsel for Amicus Curiae
302672

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	The Ninth Circuit’s Ad Hoc Balancing Test for
Protecting Donor Confidentiality Undermines
the Categorical Protection For Evidentiary
Privileges Recognized in Jaffee  . . . . . . . . . . . . . . . . . 3
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Americans for Prosperity Found. v. Becerra,
919 F.3d 1177 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . 2, 6
Americans for Prosperity Foundation v.
Becerra,
903 F.3d 1000 (9th Cir. 2018) . . . . . . . . . . . . . . 1, 2, 3, 7
Jaffee v. Redmond,
518 U.S. 1 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
Mockaitis v. Harcleroad,
104 F.3d 1522 (9th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 3
Nat’l Ass’n for Advancement of Colored People v.
State of Ala. ex rel. Patterson,
357 U.S. 449 (1958)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Trammel v. United States,
445 U.S. 40 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
Upjohn Co. v. United States,
449 U.S. 383 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Statutes and Other Authorities
U.S. Const. Amend I  . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 7
Fed. R. Evid. 501  . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4, 7
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
INTEREST OF AMICUS CURIAE
Amicus is the Thomas More Society, a non-profit,
national public-interest law firm dedicated to restoring
respect in law for life, family, and religious liberty. The
Thomas More Society provides legal services to clients
free of charge and often represents individuals who cannot
afford a legal defense with their own resources. The
Thomas More Society relies entirely on donor support to
provide its services. As such, it has a unique interest in
this case to ensure that states cannot force 501(c)(3) nonprofit organizations to disclose donor information without
satisfying the rigors of strict scrutiny.1
SUMMARY OF ARGUMENT
In Americans for Prosperity Foundation v. Becerra,
the Ninth Circuit wrongly held that California need not
demonstrate a compelling interest in forcing 501(c)(3)
non-profit organizations to disclose their top donors to
the California Attorney General (a seat recently held by
nationally renowned left-wing politicos Kamala Harris
and Xavier Becerra). 903 F.3d 1000, 1009 (9th Cir. 2018).
Instead, the Ninth Circuit held that California merely
needs an interest that “reflect[s] the seriousness”—i.e.,
outweighs, in the opinion of putatively unbiased judges—
the admitted “actual burden on First Amendment rights.”
1. All parties have consented to the filing of this brief.
Pursuant to Supreme Court Rule 37.6, counsel for amicus certifies
that no counsel for a party authored this brief in whole or in part,
and no counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person
other than amicus or their counsel made a monetary contribution
intended to fund the preparation or submission of this brief.

2
Id. (internal quotations omitted). But as the Petitioners’
briefs explain, that holding blatantly violated the Supreme
Court’s blackletter rule that outside the electoral context,
such forced disclosures (where, as here, there is evidence
they will result in hostilities toward members or donors)
require three things: (1) “a compelling government
interest”; (2) “a substantial relation between the sought
disclosure and that interest”; and (3) “narrow tailoring
so the disclosures do not infringe on First Amendment
rights more than necessary.” Americans for Prosperity
Found. v. Becerra, 919 F.3d 1177, 1181 (9th Cir. 2019)
(Ikuta, J., dissenting from denial of reh’g en banc) (citing
Nat’l Ass’n for Advancement of Colored People v. State
of Ala. ex rel. Patterson, 357 U.S. 449, 460 (1958)) (the
“NAACP v. Alabama” standard). California made none
of those showings here. See id. at 1182.
This amicus brief makes an additional argument: If
the Ninth Circuit is correct that strict scrutiny does not
apply here (in lieu of a case-by-case balancing test), it will
undermine key Supreme Court precedents founded on
similarly critical interests in protecting confidentiality:
i.e., the recognition of categorical evidentiary privileges
under Federal Rule of Evidence 501, as most recently
affirmed in Jaffee v. Redmond, 518 U.S. 1, 11 (1996)). In
other words, by thumbing its nose at the critical private
and public interests served by donor confidentiality
here, the Ninth Circuit’s position weakens the logical
foundations for longstanding, categorical evidentiary
privileges.
Reversing the Ninth Circuit thus will not only
coincide with the proper “NAACP v. Alabama standard”
mentioned above, but it will have the happy coincidence of

3
protecting the logical integrity of this Court’s decisions
in Jaffee and its predecessors, which ensure categorical
protection for certain confidential communications at the
service of the common good.
ARGUMENT
The Ninth Circuit’s Ad Hoc Balancing Test for
Protecting Donor Confidentiality Undermines the
Categorical Protection For Evidentiary Privileges
Recognized in Jaffee.
The Ninth Circuit once recognized, consistent with
Supreme Court precedent, that longstanding evidentiary
privileges for priest-penitents, attorney-clients, and
physician-patients are “rooted in the imperative need
for confidence and trust.” Mockaitis v. Harcleroad, 104
F.3d 1522, 1532 (9th Cir. 1997) (quoting Trammel v.
United States, 445 U.S. 40, 51 (1980)). A similar need
supported the Supreme Court’s decision in Jaffee, which
held that Federal Rule of Evidence 501 likewise includes
a categorical privilege for confidential communications
between psychotherapists and their patients. Jaffee, 518
U.S. at 10-15. These privileges—which are categorical
and not case-by-case—are based on the broader private
and public interests served by protecting confidentiality
in particular religious or professional relationships.
Id. If, however, the Ninth Circuit’s ad hoc balancing
test in Americans for Prosperity for protecting donor
confidentiality is correct, notwithstanding the critical
broader interests served by anonymous donations, there
is no inherent reason that extrinsic interests should
justify the important categorical privileges the Supreme
Court recognizes under FRE 501. Thus, reversing

4
the Ninth Circuit will help maintain the logic of the
general evidentiary principle that some confidential
communications are too important to the functioning of
society to be placed at the fickle mercies of judicial whim.
In Jaffee, the Supreme Court held that, pursuant to
the terms of FRE 501, “reason and experience” show that
an evidentiary privilege for confidential communications
between psychotherapists and their patients “promotes
sufficiently important interests to outweigh the need
for probative evidence.” Jaffee, 518 U.S. at 9-10 (quoting
Trammel, 445 U.S. at 51). The Supreme Court recognized
this privilege serves both private and public interests. Id.
at 10-12. And, significantly, it also held this privilege is
categorical and not subject to ad hoc judicial evaluation.
Id. at 17-18.
Specifically, Jaffee held that a psychotherapist-patient
privilege serves private interests because disclosure
of psychotherapist-patient communications could cause
embarrassment and disgrace for the patient. Id. at 10. As
the Court noted, “the mere possibility of disclosure may
impede the development of the confidential relationship
necessary for successful treatment.” Id. The Court
observed there is “wide agreement that confidentiality is
a sine qua non for successful psychiatric treatment.” Id.
(internal quotations omitted).
The Court also held that the psychotherapist-patient
privilege serves important public interests because it
facilitates proper treatment for improving “[t]he mental
health of our citizenry,” which, “no less than its physical
health, is a public good of transcendent importance.”
Id. at 11. In that respect, the privilege is similar to the

5
attorney-client privilege, whose purpose “is to ‘encourage
full and frank communication between attorneys and their
clients and thereby promote broader public interests in
the observance of law and administration of justice.’”
Id. (quoting Upjohn Co. v. United States, 449 U.S. 383,
389 (1981)). It is also like the spousal privilege, which “is
justified because it ‘furthers the important public interest
in marital harmony.’” Id. at 11 (quoting Trammel, 445
U.S. at 53). Furthermore, it is not outweighed by any
evidentiary benefit that would result from denial of the
privilege, since that would chill full and frank discussions
between psychotherapists and their patients and thus any
disclosure of evidence that the state is seeking in the first
place. Id.
Cr itica lly, the Supreme Cou r t a lso held the
psychotherapist-patient privilege is categorical and not
“contingent upon a trial judge’s later evaluation of the
relative importance of the patient’s interest in privacy
and the evidentiary need for disclosure.” Id. at 17. Like
the attorney-client privilege, “the participants in the
confidential conversation ‘must be able to predict with
some degree of certainty whether particular discussions
will be protected,’” and “[a]n uncertain privilege . . . is
little better than no privilege at all.” Id. at 18 (quoting
Upjohn, 449 U.S. at 393).
All of the interests at stake in Jaffee are also present
here with respect to the importance of protecting the
confidentiality of donors who contribute to 501(c)(3)
charitable organizations. First, disclosure of donors’
identity would likely cause them significant public disgrace
given the evidence of threats, violence, and economic
reprisals already shown to employees and supporters

6
of AFP over the years. See Americans for Prosperity
Found., 919 F.3d at 1183-84 (Ikuta, J., dissenting); see
also id. at 1184 (Ikuta, J., dissenting) (noting “the district
court found ample evidence that Foundation supporters
would likely be subject to threats or hostility should their
affiliations be disclosed”).
S e c ond , a nd a c c or d i ngly, pr ot e c t i ng donor
confidentiality serves private interests because “the
mere possibility of disclosure” would almost certainly,
and quite reasonably, impede the willingness of donors to
contribute to 501(c)(3) organizations that hold or promote
views deemed highly controversial in modern society (e.g.,
that human life begins at fertilization, that marriage is
between one man and one woman, that sex is determined
by biology and not subjective identity, etc.). See Jaffee, 518
U.S. at 10. For that reason, confidentiality is assuredly a
sine qua non for many donors who contribute to 501(c)(3)
organizations whose controversial views they support.
See id.
Third, and relatedly, donor confidentiality serves
critical public interests by ensuring that 501(c)(3)
organizations have the financial support to help resolve
social ills in our society. Many of these organizations
rely entirely on donor support and would face financial
ruin should their donors face the prospect of their own
economic peril if their identities are disclosed. As such,
protecting donors’ confidentiality helps ensure their
uninhibited support of 501(c)(3) organizations that provide
critical services not otherwise available to the public, such
as the free legal representation to victims of civil rights
violations provided by the Thomas More Law Center
(a party in this case) and the Thomas More Society (a

7
different organization). This public interest is surely just as
critical as the citizenry’s mental health, the administration
of justice, and marital harmony protected under FRE
501. See Jaffee, 518 U.S. at 11. And it is not outweighed by
any benefit from eliminating donor confidentiality, since
the resulting chill in significant donations to non-profit
organizations would likely vitiate the asserted evidence
of fraud that purportedly underlies the state’s interest in
exposing donor identity in the first place.
Finally, the Ninth Circuit’s solution unacceptably
leaves donor confidentiality up to individual judicial
whim. The Ninth Circuit’s test simply requires judges
to determine whether the state’s interest in exposing
charitable donors “reflect[s] the seriousness of the actual
burden on First Amendment rights.” Americans for
Prosperity Found., 903 F.3d at 1009. But as in the context
of evidentiary privileges, “participants in the confidential
[relationship] must be able to predict with some degree
of certainty whether particular discussions will be
protected.” Jaffee, 518 U.S. at 18. Indeed, a milquetoast
balancing test is effectively no better than no protection at
all. Id. Only categorical protection guarantees the private
and public interests served by donor confidentiality. And
strict scrutiny—rather than an ad hoc balancing test—
offers just such protection.
Accordingly, given the similarity of interests at issue in
protecting non-profit donor confidentiality and evidentiary
privileges under FRE 501, the Ninth Circuit’s balancing
test in this case undermines the logical foundations for
protecting longstanding evidentiary privileges rooted in
the interests served by confidential communications. Thus,
reversing the Ninth Circuit will have the happy benefit of
preserving the logic of Jaffee and its predecessors.

8
CONCLUSION
For the foregoing reasons, this Court should reverse
the Ninth Circuit and invalidate the California law
requiring 501(c)(3) charitable non-profits to disclose their
top donors.
Respectfully submitted,
Michael Mchale
Thomas Brejcha
Counsel
Counsel of Record
Thomas More Society - Omaha
President and Chief Counsel
10506 Burt Circle, Suite 110
Thomas More Society
309 West Washington Street,
Omaha, NE 68114
Suite 1250
(312) 782-1680
Chicago, IL 60606
(312) 782-1680
tbrejcha@thomasmoresociety.org
Counsel for Amicus Curiae

